                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM

 Case Number: 110080036                                                                                  Page 1 of 1



                 An investigation was opened on a company\ and Pf, with an SBIR award3 pursuant to an
         allegation. 4 The investigation revealed that the company spent 57% of the award funds on non-
         award expenditures 5 in the first 10 weeks. 6 The award was terminated7 and one-third ofthe
         award funds 8 yet to be distributed were recovered. The PI has been debarred for three years. 9

                   No further investigation is necessary.

                   This case is closed with no further action taken.




           The SBIR Grant General Conditions require SBIR funds be spent on expenses "necessary for the effective and
         efficient conduct of the project."
         7
           The award was terminated
         8
           $49,986.
         9
           The PI is debarred until




NSF OIG Form 2 (11/02)
